Case 20-1072, Document 25, 08/06/2020, 2902450, Pagel of 1

N.D.N.Y.
20-pf-l
Suddaby, C.J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 6th day of August, two thousand twenty.
Present:
Michael H. Park,
William J. Nardini,
Steven J. Menashi,
Circuit Judges.
Tomas Zavalidroga,
Petitioner-Appellant,
v.

20-1072

United States District Court
for the Northern District of New York,
Respondent-Appellee.
Appellant, pro se, moves for leave to proceed in forma pauperis and to consolidate this appeal with
Zavalidroga v. Hester, 2d Cir. 19-4298 (L), 20-858 (Con). Upon due consideration, it is hereby
ORDERED that the motion is DENIED and the appeal is DISMISSED because it “lacks an
arguable basis either in law or in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989); see also 28
U.S.C. § 1915(e).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

%

A

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
15th day of October, two thousand twenty.

Tomas Zavalidroga,
Petitioner - Appellant,
ORDER

v.

Docket No: 20-1072

United States District Court for the Northern District of
New York,
Respondent - Appellee.

Appellant, Tomas Zavalidroga, filed a motion for panel reconsideration, or, in the
alternative, for reconsideration en banc. The panel that determined the appeal has considered the
request for reconsideration, and the active members of the Court have considered the request for
reconsideration en banc.
IT IS HEREBY ORDERED that the motion is denied.

FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

m
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK

IN RE: TOMAS ZAVALIDROGA,

6:20-PF-0001 (GTS)

Respondent.
GLENN T. SUDDABY, Chief United States District Judge
ORDER TO SHOW CAUSE
Recently the undersigned has determined that grounds may exist to enjoin
Tomas Zavalidroga (“Respondent”) from filing any future pleadings or documents of
any kind (including motions) in this District pro se without prior permission of the Chief
Judge or his or her designee.
It is well settled that “[a] district court may, in its discretion, impose sanctions
against litigants who abuse the judicial process.” Shafii v. British Airways, PLC, 83
F.3d 566, 571 (2d Cir. 1996). Where a litigant persists in the filing of vexatious and
■j

frivolous suits, it may be appropriate to place certain limitations on the litigant’s future
/

access to the courts. See Hong Mai Sa v. Doe, 406 F.3d 155, 158 (2d Cir. 2005)
y (citing Iwachiw v. New York State Dep’t of Motor Vehicles, 396 F.3d 525, 528 [2d Cir.
2005]); see also Shafii, 83 F.3d at 571 (“The filing of repetitive and frivolous suits
constitutes the type of abuse for which an injunction forbidding further litigation may be
an“appropriate sanction.”). Before imposing such limitations, the court should consider
the following:
(1) the litigant’s history of litigation and in particular whether it
entailed vexatious, harassing or duplicative lawsuits; (2) the
litigant’s motive in pursuing the litigation, e.g., does the litigant
have an objective good faith expectation of prevailing?; (3)
whether the litigant is represented by counsel; (4) whether the

V

litigant has caused needless expense to other parties or has
posed an unnecessary burden on the courts and their personnel;
and (5) whether other sanctions would be adequate to protect the
courts and other parties.
Iwachiw, 396 F.3d at 528 (quoting Safirv. United States Lines, Inc., 792 F.2d 19, 24
[2d Cir. 1986]).
Here, after carefully reviewing the record, the Court concludes that, unless he
shows cause otherwise, Respondent should be enjoined from filing any future
pleadings or documents of any kind (including motions) in this District pro se without
prior permission of the Chief Judge or his or her designee. Since February 24, 2009,
Respondent, while proceeding pro se, has filed eight actions in this Court, six of which
have been dismissed based on lack of merit,1 the seventh of which he had the good
sense to voluntarily discontinue (given that it was duplicative of another pending

1

See Zavalidroga v. Cote, 09-CV-0225, Order (N.D.N.Y. filed Jan. 19,
2010) (Hurd, J.) (dismissing plaintiff’s pro se amended complaint for lack of subjectmatter jurisdiction), aff’d, No. 10-0492-cv, Mandate (2d Cir. filed Nov. 24, 2010);
Zavalidroga v. Oneida Cty. Sheriffs Dep’t, 11-CV-0277, Order (N.D.N.Y. filed June 17,
2014) (Mordue, J.) (dismissing plaintiffs pro se amended complaint for failure to
prosecute), appeal dismissed as frivolous, No. 14-2575, Mandate (2d Cir. filed July 29,
2015); Zavalidroga v. Cuomo, 11-CV-0831, Memorandum-Decision and Order
(N.D.N.Y. filed Aug. 1,2012) (Mordue, J.) (dismissing plaintiffs pro se complaint for
lack of standing), appeal dismissed for lack ofjurisdiction, No. 12-3620, Mandate (2d
Cir. filed Feb. 20, 2013); Zavalidroga v. Oneida Cty. Dep’t of Adult Prot. Servs.,
14-CV-1273, Decision and Order (N.D.N.Y. filed Dec. 18, 2015) (Suddaby, J.)
(dismissing plaintiffs pro se complaint based on abstention doctrine), appeal
dismissed as frivolous, No. 16-20, Mandate (2d Cir. filed May 25, 2016); Zavalidroga v.
Madison Cty., 17-CV-0117, Order of Dismissal (N.D.N.Y. filed March 21,2019) (Hurd,
J.) (dismissing remainder of plaintiffs pro se amended complaint for failure to
prosecute, following dismissal of other portions of plaintiffs amended complaint for
failure to state a claim); Zavalidroga v. Girouard, 17-CV-0682, Memorandum-Decision
and Order (N.D.N.Y. filed Oct. 24, 2017) (Sannes, J.) (dismissing plaintiffs pro se
complaint based on immunity and a failure to state a claim), appeal conditionally
dismissed, No. 18-719, Mandate (2d Cir. filed Aug. 6, 2018).
2

V

action),2 and the eighth of which is on the verge of dismissal.3 By and large, these
actions (which, again, were all commenced pro se) have been so patently without merit
as to be harassing of the defendants, demonstrative of a lack of an objective goodfaith expectation of prevailing, and unnecessarily burdensome to the Court. Moreover,
given the fact that Respondent has continued his vexatiousness conduct despite
having been admonished and even monetarily sanctioned,4 the Court finds that
sanctions lesser than a Pre-Filing Order would not be adequate to protect the Court
and opposing parties.
Notwithstanding the overwhelming support for a filing injunction (or “Pre-Filing
Order”) under the circumstances, fairness dictates that Respondent be given notice
and an opportunity to be heard. See Iwachiw, 396 F.3d at 529. As a result, he shall
have fourteen (14) days from the date of this Order to show cause, in writing, why he
should not be enjoined from filing any future pleadings or documents of any kind
(including motions) in this District pro se without prior permission of the Chief Judge or
his or her designee.

Zavalidroga v. Christmas, 19-CV-1304, Order (N.D.N.Y. filed Oct. 25,
2019) (Suddaby, C.J.) (closing action due to plaintiffs voluntary discontinuance); cf.
Zavalidroga v. Hester, 19-CV-1412, Order (N.D.N.Y. filed Nov. 19, 2019) (Suddaby.
C.J.) (identifying action as related to 19-CV-1304).
3
See Zavalidroga v. Hester, 19-CV-1412, Text Order (N.D.N.Y. filed Jan.
13, 2020) (Suddaby. C.J.) (directing plaintiff to show cause as to why his action should
not be dismissed for failure to prosecute); Zavalidroga v. Hester, 19-CV-1412, ReportRecommendation (N.D.N.Y. filed Jan. 10, 2020) (Dancks, M.J.) (recommending that
plaintiff’s pro se complaint be dismissed for failure to state a claim).
4
See Zavalidroga v. Oneida Cty. Sheriff’s Dep’t, 11-CV-0227, Decision
and Order (N.D.N.Y. filed March 17, 2014) (Peebles, M.J.) (imposing monetary
sanctions on plaintiff).
3

V

ACCORDINGLY, it is
ORDERED that Respondent shall, within FOURTEEN (14) DAYS of the date of
this Order, show cause, in writing, why he should not be enjoined from filing any future
pleadings or documents of any kind (including motions) in the Northern District of New
York pro se without prior permission of the Chief Judge or his or her designee (except s
pleadings or documents in a case that is open at the time of the issuance of the
Court’s Pre-Filing Order, until that case is closed);5 and it is further
ORDERED that, if Respondent does not fully comply with this Order, the Court
will issue a subsequent order, without further explanation, permanently so enjoining
Respondent; and it is further
ORDERED that the Clerk shall provide a copy of this Order to Respondent by
certified mail.
Dated:

January 16, 2020
Syracuse, New York

Hon. Glenn T. Suddaby
Chief U.S. District Judgi

5

This injunction would apply to, among other things, continued filings by
Respondent as a pro se plaintiff in any actions filed by him in another federal district
court and transferred to this Court by either him or his opponent, and/or filed by him in
state court and removed to this Court by either him or his opponent, to the extent those
other actions assert chiefly federal claims that largely arise from previously reviewed
events and/or are asserted against previous defendants, rendering reasonable an
anticipation that the actions would be transferred or removed to this Court. In re
Martin-Trigona, 737 F.2d 1254, 1262-63 (2d Cir.1984), accord, Lipin v. Sawyer, 395 F.
App’x 800, 801 (2d Cir. 2010).
4

